IN THE SUPREME COURT OF THE UNITED STATES

No. 21-309

SOUTHWEST AIRLINES Co.,

Petitioner,
Vv.

LATRICE SAXON,

Respondent.

CERTIFICATE OF SERVICE

I, Cory L. Andrews, counsel for amicus curiae Washington Legal Foundation
and a member of the Bar of this Court, certify that on this 27th day of September,
2021, three copies of the amicus brief were mailed to the following counsel of record:

Melissa Anne Siebert

SHOOK, HarDy & BAcoN LLP

111 South Wacker Drive, Suite 4700
Chicago, IL 60606

(812) 704-7700

masiebert@shb.com

Counsel for Petitioner

Jennifer Dale Bennett
GUPTA WESSLER, PLLC

100 Pine Street, Suite 1250
San Francisco, CA 94111
(415) 569-6989
jennifer@guptawessler.com
Counsel for Respondent
I also certify that a copy of the amicus brief was electronically mailed to each

counsel listed above, and that all parties required to be served have been served.

Dated: September 27, 2021

Cory L. Andréws

WASHINGTON LEGAL FOUNDATION
2009 Massachusetts Ave., NW
Washington, DC 20036

(202) 588-0302
candrews@wlf.org

Counsel for Amicus Curiae
